         Postal Service Retail Facilities
             Optimization Options

         Management Advisory Report




                               September 17, 2012

Report Number CI-MA-12-002
                                                                  September 17, 2012

                                                      Postal Service Retail Facilities
                                                               Optimization Options

                                                        Report Number CI-MA-12-002




BACKGROUND:
In May 2012, the U.S. Postal Service        access, and Saturday retail service
announced a new retail strategy, the        hours. However, there would be
Post Office Structure Plan (POStPlan),      customer inconveniences such as
to preserve post offices (PO) in rural      reduced hours of operation and traveling
America. Under the POStPlan, the            new distances to access alternate retail
Postal Service would modify retail          locations.
service hours to match customer usage
over a 2-year period. The Postal Service    The Postal Service plans to explore
plans to hold community meetings and        other options, such as expanding
surveys for POStPlan offices to obtain      partnerships with local businesses and
community input before making               staggering the open and close times of
changes.                                    surrounding POs, with the communities
                                            of Antler and Goldsboro to mitigate
Our objective is to evaluate the benefits   reduced retail service hours. Also,
and challenges of reducing retail service   customers would have the option of
hours at two Postal Service retail          using usps.com, the Postal Service’s
locations, one in a low-density, rural      toll-free number, 1-800-STAMP-24, and
location and one in a mid-density, non-     rural letter carriers to purchase products
urban location. We judgmentally             and services and pick up packages.
selected the Antler PO in Antler, ND,
and the Goldsboro PO in Goldsboro,          WHAT THE OIG RECOMMENDED:
MD, from the POStPlan to conduct a          Because the potential service impacts
case study of potential customer service    resulting from the POStPlan will be
impacts.                                    based on the Postal Service’s final
                                            decision after obtaining community
WHAT THE OIG FOUND:                         input, we are not making any
Overall, customer service impacts           recommendations.
resulting from the proposed plan varies
for customers of the Antler and             Management elected not to provide
Goldsboro POs, because of the               written comments, because there were
facilities’ locations and access to         no recommendations.
alternate retail options. The proposed
plan to preserve the two POs helps          Link to review the entire report
balance service with cost saving
opportunities by matching retail hours to
workload. It will also maintain
community identities, ZIP Codes, lobby
September 17, 2012

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory – Postal Service Retail Facilities
                           Optimization Options (Report Number CI-MA-12-002)

This report presents the results of our case study of the potential customer service
impacts resulting from the U.S. Postal Service’s plan to modify retail service hours
(Project Number 12YG036CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael L. Thompson, director,
Planning, Innovation, and Optimization at 703-248-2389, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    James J. Boldt
    Jeffrey C. Day
    Corporate Audit and Response Management
Postal Service Retail Facilities                                                                                    CI-MA-12-002
 Optimization Options


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Preserve Access ............................................................................................................. 1

   Antler Post Office ......................................................................................................... 2

   Goldsboro Post Office.................................................................................................. 4

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Postal Service Alternate Access Options .................................................... 8
Postal Service Retail Facilities                                                                   CI-MA-12-002
 Optimization Options



Introduction

This report presents the results of our case study of the potential customer service
impacts resulting from the U.S. Postal Service’s plan to modify retail service hours
(Project Number 12YG036CI000). Our objective is to evaluate the benefits and
challenges of reducing retail service hours at two Postal Service locations, one in a
low-density, rural location and one in a mid-density, non-urban location. This self-
initiated review addresses operational risk. See Appendix A for additional
information about this review.

In May 2012, the Postal Service announced a new retail strategy, Post Office
Structure Plan (POStPlan), to preserve post offices (PO) in rural America. Under
the POStPlan, the Postal Service would modify retail hours to match customer
usage. We judgmentally selected the Antler PO in Antler, ND, and the Goldsboro
PO in Goldsboro, MD, from the POStPlan to conduct a case study of potential
customer service impacts resulting from the new retail facility optimization strategy.
The potential customer service impacts resulting from the POStPlan will be based
on the Postal Service’s final decisions after obtaining input from the Antler and
Goldsboro communities.

Conclusion

The Postal Service’s plan to preserve the Antler and Goldsboro POs helps balance
service with cost saving opportunities by matching retail hours to workload. It will
also maintain community identities, ZIP Codes, lobby access, and Saturday retail
service hours. However, there would be customer inconveniences such as reduced
hours of operation, traveling new distances to alternate retail locations, and access
to alternate retail options. The Postal Service plans to explore other options, such
as expanding partnership with local businesses and staggering the open and close
times of surrounding POs, to mitigate the reduced retail service hours.1

Preserve Access

The Postal Service plans to preserve the Antler and Goldsboro POs by modifying
their retail service hours from Monday through Friday to match customer usage.
The Antler PO’s retail service hours will be reduced from 6 to 2 hours, and the
Goldsboro PO from 7 to 4 hours. According to the Postal Service, access to Antler
and Goldsboro’s retail lobbies, PO boxes, and Saturday retail service hours will
remain unchanged. Also, by keeping the Antler and Goldsboro POs in operation,
the towns will maintain their community identities and ZIP Codes. In addition, the
Postal Service plans to explore other options, such as contracting with local

1
 Starting in September 2012 and over a 2-year period, the Postal Service plans to hold community meetings
and surveys with POStPlan offices to obtain community input before making changes.
                                                      1
Postal Service Retail Facilities                                                                         CI-MA-12-002
 Optimization Options


businesses, expanding alternate access channels, and staggering retail service
hours for surrounding POs, with the communities of Antler and Goldsboro to
mitigate the reduced retail service hours.

Antler Post Office

The Antler PO currently serves its customers with about 6 hours of retail service
from Monday through Friday and 30 minutes on Saturday (see Table 1). The Antler
PO lobby is open 24 hours, 7 days a week to provide PO box customers with
access, and averages about seven retail transactions2 per day.

We obtained surrounding access points within a 20-mile radius for the Antler PO
address from the Postal Service’s public website, usps.com, and found that
customers have access to four POs, ranging from 14.5 miles to 18.7 miles away.
However, customers do not have access to any self-service kiosks or contractor
operated locations.3

The Antler PO is co-located in the same building with the community center and the
fire department in the town of Antler, ZIP Code 58711. Antler has a population of
2054 and four local businesses.5 The town is about 50 miles from the nearest urban
city,6 Minot, ND, and 1.5 miles south of the Canadian border.




2
  During the period July 9, 2011, to July 13, 2012, there was an average of seven retail transactions daily (2,269
transactions divided by 308 customer service days).
3
  Private businesses that are under an agreement with the Postal Service to provide postal products and
services.
4
  U.S. Census Bureau, 2010 Census.
5
  One each: a restaurant, gas station, grain cooperative facility, and hunting preserve.
6
  According to the Urban and Rural Classifications, Chapter 12, the Census Bureau defines 'urban' as a place
with at least 2,500 inhabitants. Minot, ND, has a population of 40,888.


                                                        2
      Postal Service Retail Facilities                                                     CI-MA-12-002
       Optimization Options


                             Table 1. Current Operations at the Antler PO
                                                        Average        Self-             Contractor-
                              Lobby                    Daily Retail Service Alternate Operated
Retail Service Hours          Hours       PO Box      Transactions Kiosk        POs       Facilities
                                                                             Within 20 Miles
            10:30 a.m.
                to
            12:30 p.m.
Monday –
 Friday
             1:00 p.m.                     71 of the 88
                to                          PO boxes
             4:45 p.m.                     are rented to
                             24 hours                                  7      None     4             None
                                            customers.
Saturday    10:45 a.m.
                to
            11:15 a.m.

Sunday        Closed                                               Closed            Closed

      Source: usps.com Find Locations and Postal Service Retail Operations.

      While the community will maintain their PO, there are limited customer
      inconveniences such as reduced retail service hours and traveling new distances to
      alternate retail locations when the Antler PO is closed. In addition, we found that the
      four POs nearby are POStPlan offices under study for service hour modifications.
      Three of the four POs are under study for 2-, 4-, and 6-hours of retail service. The
      fourth PO will be reviewed for increasing retail service hours to an 8-hour office.
      Further, we noted that none of the POs are equipped with self-service retail options.
      Lastly, the nearest stamps-only contractor-operated location is more than 38 miles
      from the Antler PO and a mailing and shipping contractor-operated location is more
      than 50 miles from the Antler PO.

      The geographic location and sparsely populated area present unique service
      requirements and access issues for the Antler community. To mitigate customer
      inconveniences, the Postal Service plans to explore options with the community,
      such as staggering the open and close times of the Antler and nearby POs to allow
      retail service access throughout the day. For example, one office opens from 7 a.m.
      to 1 p.m., a second office opens from 12:30 p.m. to 2:30 p.m., and a third office
      opens from 2 p.m. to 6 p.m. Other options include deploying self-service kiosks or
      other vending options in the PO lobby and establishing partnerships with local
      businesses. While self-service kiosks and contractor-operated locations do not
      carry the full line of postal products and services, they offer convenience and
      access when the PO’s retail service hours are not available.

      For some, traveling new distances to reach another PO, self-service kiosk, or
      contractor-operated location is not an option. However, customers can use the



                                                           3
Postal Service Retail Facilities                                                                          CI-MA-12-002
 Optimization Options


Postal Service’s toll-free number or usps.com to purchase postal products and
services. Finally, another option is to obtain certain services from the rural letter
carrier, such as purchasing stamps, signing for a package (medications or certified
mail), or insuring mail (see Appendix B for a list of alternate access options).

Goldsboro Post Office

In our study of the Goldsboro PO, we identified retail service is open about 7 hours
a day from Monday through Friday and 3 hours on Saturday (see Table 2). The
lobby is open 9 hours daily, Monday through Friday, and 4 hours on Saturday, and
provides customers with access to PO boxes. The Goldsboro PO averages 23 retail
transactions7 per day. The Goldsboro PO also provides copier services in the lobby.

According to usps.com, within a 20-mile radius from the Goldsboro PO address,
customers have access to 35 POs, one self-service kiosk, and 27 contractor-
operated locations, ranging from 3 miles to 19.5 miles away.
The Goldsboro PO is co-located with the Goldsboro Township office. The town of
Goldsboro, ZIP Code 21636, has a population of 1,265,8 and does not have any
local businesses. Goldsboro, MD, is located near the Delaware-Maryland state line
and the nearest urban city is Dover, DE,9 about 14 miles away.




7
  During the period July 9, 2011, to July 13, 2012, there was an average of 23 retail transactions daily (7,089
transactions divided by 308 customer service days).
8
  U.S. Census Bureau, 2010 Census.
9
  Dover, DE, population is 36,047, U.S. Census Bureau, 2010 Census.


                                                        4
          Postal Service Retail Facilities                                                 CI-MA-12-002
           Optimization Options


                      Table 2. Current Operations at the Goldsboro PO
                                                      Average      Self-             Contractor-
                        Lobby                       Daily Retail Service Alternate Operated
Retail Service Hours    Hours          PO Box      Transactions Kiosk       POs       Facilities
                                                                         Within 20 Miles
             8 a.m.
               to
           11:30 a.m.
Monday –               7:30 a.m.
                                    79 of the 160
 Friday                    to
            1:00 p.m.               PO boxes are
                       4:30 p.m.
               to                     rented to          23         1        35          27
            4:15 p.m.                customers.

Saturday       8:00 a.m.        7:30 a.m.
                  to               to
                11 a.m.        11:30 a.m.
                                                                                                    Retail hours
 Sunday                                                      Closed                                  are set by
                                                                                                      retailers.
           Source: usps.com Find Locations and Postal Service Retail Operations.

          Although retail service hours at the Goldsboro PO are under study for modification,
          the impacts on customer access may be minimal. Customers have access to 35
          POs and 27 stamps-only contractor operated locations within a 20-mile radius of
          the Goldsboro PO. However, limited customer inconveniences remain, because the
          community will lose 3 hours of retail service and customers may have to travel new
          distances to access alternate retail locations when the Goldsboro PO is closed. We
          also found that 19 of the 35 surrounding POs are POStPlan offices under study for
          service hour modifications. Fourteen POs are being studied for 2-, 4-, and 6-hours
          of retail service and five POs are under consideration for upgrades to 8-hour
          offices. As discussed previously for the Antler PO, the Postal Service also plans to
          explore other options with the Goldsboro community, such as:

             Staggering the open and close times of Goldsboro and its nearby POs to allow
              access to retail services throughout the day.

             Deploying a self-service kiosk or other vending.

             Expanding retail alliances with local businesses to provide postal products and
              services.

          Customers with limited travel options could access postal products and services
          through the Postal Service’s toll-free number, usps.com, or their rural letter carrier.




                                                               5
Postal Service Retail Facilities                                                                  CI-MA-12-002
 Optimization Options


                                 Appendix A: Additional Information

Background

Under the POStPlan, the Postal Service evaluated POs classified as executive and
administrative schedule Level 1610 and below to match retail service hours based
on the offices’ earned workload with customer usage. The Postal Service analyzed
more than 17,000 POs, specifically:

      13,167 POs will have retail service hours reduced to 2, 4, or 6 hours.

      4,561 POs will remain the same or upgrade to an 8-hour office.

In September 2012, the Postal Service plans to begin having community meetings
and surveys for POStPlan offices to discuss options that could mitigate modified
retail service hours by:

      Implementing mail delivery service to residents and businesses in the affected
       community by either rural letter carrier or highway contract route.

      Contracting with a local business to create a Village PO.

      Providing service from a nearby PO.

The POStPlan will be implemented over 2 years with completion by the fall of 2014.

Objective, Scope, and Methodology

Our objective was to evaluate the benefits and challenges of reducing operating
hours at two of the Postal Service retail locations, one in a low-density, rural
location and one in a mid-density, non-urban location. To accomplish our objective,
we:

      Judgmentally selected two retail facilities from the POStplan to review postal
       products and services, current operations, alternate access, surrounding
       facilities, and demographic and geographic data. We did not select an office
       from a high-density area, because under the POStplan, the Postal Service plans
       to maintain or increase retail service hours at those locations.

      Reviewed Postal Service and Postal Regulatory Commission documents posted
       on their public websites related to the POStPlan.

      Interviewed Postal Service Headquarters Retail Operations and local managers.



10
     A salary structure that applies to managerial and administrative Postal Service employees.


                                                         6
Postal Service Retail Facilities                                               CI-MA-12-002
 Optimization Options


We conducted this review from June through September 2012 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards
for Inspection and Evaluation. We discussed our observations and conclusions with
management on August 23 and September 6, 2012, and included their comments
where appropriate.

Prior Audit Coverage

The U.S. Postal Service Office of Inspector General did not identify any prior audits
or reviews related to the objective of this review.




                                          7
Postal Service Retail Facilities                                             CI-MA-12-002
 Optimization Options


                 Appendix B: Postal Service Alternate Access Options
                                                                            Mailing
                                                                             and
                                                                   Stamp
                                                                           Shipping
           Postal Service Alternate Access Options                  Only
                                                                           Services
Village PO – a community business that provides selected                     
postal products and services, including Forever® stamps and
Priority Mail® Flat Rate packages and envelopes.
Contract Postal Unit – a postal unit that is subordinate within              
the service area of a main PO. It is usually in a store or
place of business and is operated by a contractor who
accepts mail from the public, sells postage and supplies,
and provides selected special services (such as money
order or Registered Mail).
Approved Shippers – private packaging and shipping                           
retailers that provide a variety of shipping service including
Postal Service and competitor services.
Stamps to Go® (formerly Stamps on Consignment) –                    
distributes stamp booklets, stamp coils, and automated teller
machine stamps to consignees.
Automated Postal Centers – offer a number of products and                    
services, including, but not limited to stamp sales;
international postage for documents and correspondence;
rate calculation; Express Mail, Priority Mail, First-Class Mail,
and Parcel Post services; ZIP Code® lookup; Express Mail,
Certified Mail, and return receipts; purchase Delivery
Confirmation service; and PO box rental payments.
Postal Service website (usps.com) – offers a wide range of                   
services, including, but not limited to, stamps sales; First-
Class Mail, Express Mail, Priority Mail, Priority Mail and
international mail services; shipping supplies; customized
mailings through CardStore, Premium Postcards, and
Click2Mail; ZIP Code lookup; PO Locator; rate calculation;
change of address; packaging products; reserve or renew
PO boxes; and hold mail.
Postal Service toll-free number – the Postal Service uses           
their toll-free 1-800-STAMP-24 number to allow customers
to obtain general PO information, track and confirm the
status of mail and packages, order stamps and shipping
supplies and get technical support for online services




                                           8
Postal Service Retail Facilities                                                                   CI-MA-12-002
 Optimization Options


                                                                                                Mailing
                                                                                                 and
                                                                                  Stamp
                                                                                               Shipping
           Postal Service Alternate Access Options                                 Only
                                                                                               Services
Stamps by Mail – the Postal Service uses their Stamps by                             
Mail® service to allow customers in city delivery areas to
purchase stamps by conveniently ordering them through the
mail. Customers can order stamp products (booklets,
sheets, or coils) by completing Stamps by Mail order forms.
There is no additional charge to customers for this service or
for shipping and handling when making a purchase using
the Stamps by Mail brochure.
Carriers – the Postal Service will use rural letter carriers or                                    
contract carriers to accept, collect, and deliver mail; sell
stamp supplies; and accept applications for postal money
orders.
Source: Publication 32, Glossary Postal Service Terms, April 2012; PO Handbook 603, Rural Carriers Duties
and Responsibilities, February 2010; and POStPlan Glossary, Jue 2012.




                                                     9
